                         AUDIT REPORT




Web End-of-Run System
  June 2, 2014




                 Report Number MS-AR-14-004
                                                                   HIGHLIGHTS

                                                                         June 2, 2014

                                                         Web End-of-Run System
                                                      Report Number MS-AR-14-004
BACKGROUND:
The U.S. Postal Service uses the Web       WHAT THE OIG FOUND:
End-of-Run (WebEOR) system to              The Postal Service has opportunities to
collect, store, and report mail volume     increase the accuracy of mail volume
data. The WebEOR process for               data that WebEOR reports. WebEOR's
collecting mail volume data differs        automated volume data has generally
depending on the type of mail              proven to be reliable; however, the
processing involved. The system            system resets volumes to zero if
collects automated mail volume data        mailpieces that require processing by
directly from mail processing equipment.   multiple sort programs are not
It bases daily manual mail volume on       subsequently processed within
projections from annual surveys that       3 business days. The system cannot
Postal Service plant personnel conduct.    automatically identify when this type of
About 95 percent of the total mail         variance occurs, so staff members must
volume WebEOR records is automated         manually review data collection reports
and about 5 percent is manual.             to detect the errors. This may affect the
                                           accuracy of automated WebEOR data.
The Postal Service must consider           The accuracy of manual WebEOR data
WebEOR data when establishing              also faces risks, albeit on a smaller
workshare discounts it provides to         scale, from inconsistencies in mail
mailers for presorting, barcoding, or      surveys and the use of less reliable
handling mail. The Postal Service uses     judgmental sampling for those surveys.
WebEOR data in cost avoidance
calculations and other analyses,           Increasing the accuracy of mail volume
including assessments of plant             data reported by WebEOR would help
productivity. The Postal Accountability    strengthen the Postal Service’s cost
and Enhancement Act of 2006                calculations and enhance the accuracy
established regulations for workshare      of the data management use to make
discounts and requires the U.S. Postal     decisions.
Service Office of Inspector General
(OIG) to review data collection systems    WHAT THE OIG RECOMMENDED:
the Postal Service uses to determine       We recommended the Postal Service
annual product costs, revenue, and rate    update WebEOR to automatically
reporting. WebEOR is one of several        identify mail volumes that are reset to
systems the Postal Service uses to         zero, improve the consistency of manual
gather such data.                          mail surveys, and evaluate additional
                                           strategies to improve the methodology
Our objective was to evaluate the          used to conduct manual mail surveys.
accuracy of mail volume that WebEOR
reports.                                   Link to review the entire report
June 2, 2014

MEMORANDUM FOR:           DAVID E. WILLIAMS, JR.
                          VICE PRESIDENT, NETWORK OPERATIONS




FROM:                     Janet M. Sorensen
                          Deputy Assistant Inspector General
                           for Revenue and Resources

SUBJECT:                  Audit Report – Web End-of-Run System
                          (Report Number MS-AR-14-004)

This report presents the results of our audit of the Web End-of-Run System (Project
Number 13RG024MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Joshua M. Bartzen, acting
director, Sales and Marketing, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Web End-of-Run System                                                                                              MS-AR-14-004



                                               TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Opportunities for Data Improvement ............................................................................... 2

Recommendations .......................................................................................................... 3

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Other Impacts ............................................................................................. 8

Appendix C: Management’s Comments .......................................................................... 9
Web End-of-Run System                                                                                 MS-AR-14-004




Introduction

This report presents the results of our audit of the Web End-of-Run (WebEOR) system
(Project Number 13RG024MS000). Our objective was to evaluate the accuracy of mail
volume reported by WebEOR. This audit was self-initiated, based on a requirement in
the Postal Accountability and Enhancement Act of 2006 that the U.S. Postal Service
Office of Inspector General (OIG) regularly review data collection systems the U.S.
Postal Service uses to collect information for its Annual Compliance Report.1 See
Appendix A for additional information about this audit.

The Postal Service uses WebEOR to collect, store, and report about 85 to 95 percent of
mail volume data2 and determine mailpiece counts for mail processed at each postal
facility. Facilities conduct a mailpiece count each time they sort a letter, flat, or parcel
and the following mail operations generate mail volume data:

 Mail processing equipment (MPE) collects automated mail volume data directly and
  collects about 95 percent of total mail volume recorded in WebEOR.

 WebEOR calculates manual mail volume data for letters and flats based on
  projections from annual surveys (in other words, counts) of manual mail conducted
  by Postal Service plant personnel. About 5 percent of total mail volume is manually
  processed.

The Postal Service's Cost Attribution group uses WebEOR data to help determine cost
avoidance calculations,3 which the Postal Service must consider when establishing
workshare discounts4 for market-dominant products.5 The Postal Service uses
calculations and discounts to develop its Annual Compliance Report. The Network
Operations group uses WebEOR volume data to evaluate facility productivity and
efficiencies, which can assist in estimating workhours, evaluating facility consolidations,
and assessing budgets. This is the OIG’s first review of WebEOR since the Postal
Service began using it to collect automated mail volume data in 2008.




1
  Public Law 109-435, Section 3652, December 20, 2006.
2
  Several Postal Service systems collect mail volume data. The systems record volume amounts based on how
management intends to use the data; therefore, systems may report volume totals differently, making it difficult to
determine what specific percentage of total mail volume comes from WebEOR.
3
  Reductions in an organization’s future costs. Cost avoidance calculations help contain and control costs and may
create cost savings over time.
4
  Rate discounts provided to mailers for presorting, barcoding, handling, or transporting mail. See 39 U.S.C. §
3622(e) for a full description of the requirements.
5
  Market-dominant products are First-Class Mail letters, sealed parcels and cards, Periodicals, Standard Mail,
single-piece Parcel Post, Media Mail, Bound Printed Matter, Library Mail, Special Services, and single-piece
international mail.

                                                          1
Web End-of-Run System                                                                                   MS-AR-14-004



Conclusion

The Postal Service has opportunities to increase the accuracy of WebEOR mail volume
data. Automated mail volume data in WebEOR is generally reliable; however, the
system resets volumes to zero if facilities do not process certain mailpieces within
3 business days. Facility staff must review error reports and manually correct volumes
in the system when this occurs. We also observed that the accuracy of data for
manually processed mail reported by WebEOR also faces risks, albeit on a smaller
scale, due to inconsistencies in survey-related procedures and reliance on subjective
sampling methodologies. Increasing the accuracy of WebEOR mail volume data would
help strengthen the Postal Service’s cost calculations and enhance the data
management use to make decisions.6

Opportunities for Data Improvement

WebEOR resets mail volume data to zero when mailpieces that require processing by
multiple sortation programs are not processed by subsequent sort programs within
3 business days of initial handling.7 WebEOR cannot automatically identify this type of
variance, so staff members must manually review mail volume data collection reports to
detect the errors.8 This may affect the accuracy of automated WebEOR data, as many
of the facility staff with whom we spoke were unaware of this system limitation. Updating
WebEOR so that it automatically identifies volume variances that arise when automated
mailpieces are not processed on time would eliminate reliance on manual reviews and
could increase the accuracy of these data.

We also noted that improvements to annual manual mail surveys could enhance the
reliability of volume data for manually processed mail. Improving the consistency and
methodology of yearly manual mail surveys may not only improve the accuracy of
WebEOR volume reporting, but also strengthen the Postal Service’s cost calculations
and enhance the data management use to make decisions. Specifically, we noted:

   The facilities we visited did not conduct surveys and related mail counts consistently.
    For example, manually processed digital video disc (DVD) mail9 was included in the
    survey counts at some facilities we visited, but not at others.

   Employees at sites we visited based manual mail counts on the “fullness” of mail
    containers, which is a subjective estimate, rather than weighing the mail.

   Current manual mail surveys rely on judgmental sampling methodologies that are
    less likely to generate accurate percentage rates compared to statistical sampling

6
  See Appendix B for a discussion of other impact associated with data integrity.
7
  If mailpieces are not fully processed and distributed within 3 business days, the WebEOR category of subsequent
handling piece (SHP) is reset to zero. Additional information on this and other WebEOR categories is in Appendix A.
8
  The Postal Service Network Operations group can retrieve historical data and recalculate for "lost" data and correct
volume rate.
9
  Due to its fragile nature, some DVD mail is manually sorted, yet it does not fall within one of the designated manual
operations identified in manual mail survey instructions.


                                                           2
Web End-of-Run System                                                          MS-AR-14-004



       methodologies. The Postal Service’s use of judgmental sampling is predicated on its
       assumption that the proportion of total mail that is processed manually will not
       change when automated mail volume fluctuates throughout the year. It bases this
       assumption on advances in remote computer reader recognition technology. 10
       Judgmental sampling, however, is subjective and prone to bias.

When we discussed these issues with facility managers, they expressed a need for
improved training on the survey process, as they currently rely on instructions from
Postal Service Headquarters and district offices to conduct the annual surveys.
Headquarters managers we spoke with observed that local facilities have control over
the timing and coverage of the surveys because they are best able to judge and
evaluate representative mail flows.

Recommendations

We recommend the vice president, Network Operations, determine strategies to
improve the accuracy of mail volume data reported in Web End-of-Run, including:

1. Updating the Web End-of-Run system to identify volumes reset to zero.

2. Improving the consistency of manual mail surveys by standardizing the types of mail
   to be included in the surveys and enhancing related facility-level training.

3. Evaluating additional strategies to improve the methodology used to conduct manual
   mail surveys.

Management’s Comments

Management agreed with the findings and recommendations in the report.

Regarding recommendation 1, management will update the system so that it can
identify when volumes are not completely accounted for in downflow operations within
the current timeframes. The identification will include a reporting facility for these
instances. The manager, Processing Operations, will complete this effort by October 31,
2014.

Regarding recommendation 2, management will revise the annual survey
documentation (for manual mail) to clarify and standardize volumes to be included or
excluded and develop additional training materials to improve local personnel's
understanding of the survey. The manager, Processing Operations, will complete these
efforts by August 31, 2014.

Regarding recommendation 3, management will continually evaluate new data sources
and technologies (for manual mail surveys), evaluate the costs and benefits of any


10
     This assumption is not verifiable through any Postal Service study.


                                                             3
Web End-of-Run System                                                  MS-AR-14-004



possible changes, and implement those that make good business sense. In subsequent
correspondence, management stated this would be completed by October 31, 2014.

See Appendix C for management's comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.




                                         4
Web End-of-Run System                                                                                        MS-AR-14-004




                                   Appendix A: Additional Information

Background

The Postal Service uses mail volume data to determine cost avoidance calculations for
its market-dominant products and evaluate processing productivity. The Postal Service
previously weighed mail to determine mail processing volume data,11 which is a time-
consuming and highly inaccurate process. The agency worked to improve its mail
volume data collection and, in 2008, modified WebEOR to collect, store, and report mail
volume data for automated and manual processing operations. WebEOR currently
records about 85 to 95 percent of mail volume data.

The process for generating volume data in WebEOR differs based on the type of mail
processing involved:

    Automated Processing – MPE collects volume data directly from automated mail.
     The WebEOR system pulls raw data files from MPE and reproduces, archives, and
     summarizes it. Volume data are archived into three categories: first handling pieces
     (FHP),12 SHP,13 and total pieces handled (TPH).14 Automated mail volume data
     comprise about 95 percent of all mail volume data recorded in WebEOR.

    Manual Processing – WebEOR manual operations consist of letter and flat mail
     deemed non-machineable,15 such as oversized or oddly shaped mail, compact
     discs, Periodicals, and rejected mail. Manual mail volume data comprise about
     4 percent of total WebEOR mail volume data. WebEOR calculates daily volume data
     for manually processed mail based on projections gathered from annual surveys of
     manual mail that Postal Service plant personnel conduct. More specifically,
     WebEOR calculates volume as a percentage of automated mail that flows to manual
     operations.

The results of an annual judgmental survey determine percentage rates for manual mail
volume. The survey takes place over 5 days during a non-peak mail period (generally in
September or October). Facility staff members collect and record volume data. They
record manually processed mail volume based on mail levels in mail containers such as
trays, tubs, and hampers. Employees use a national average to determine the amount
of mail determined to "fill" a mail container. Fullness of mail containers depends on the
judgment of personnel conducting the counts. Survey data are entered into WebEOR at


11
   Prior to the introduction of automation in 2008, the Postal Service weighed mail to determine volume data,
converting pounds to piece counts to calculate mail volume. It estimated inaccuracies in this process of between
10 and 20 percent.
12
   A letter, flat, or parcel sorted in a processing facility for the first time. The Postal Service calculates FHP as “TPH
minus SHP.”
13
   An FHP letter, flat, or parcel that requires additional processing and, therefore, is handled for a second or
subsequent time.
14
   The total number of mailpieces fed into MPE minus the total number of mailpieces rejected by MPE.
15
   Mailpieces that normally cannot be run on any type of MPE due to their size, shape, or other characteristics.


                                                             5
Web End-of-Run System                                                                                  MS-AR-14-004



the end of the survey period and the system calculates the attributable percentage rate
for each WebEOR manual operation.

Postal Service systems, such as the Delivery Operations Information System,
Enterprise Data Warehouse, and the Management Operating Data System, receive mail
volume data from WebEOR. The Postal Service's Cost Attribution group uses this data
to help determine cost avoidance calculations, which the Postal Service must consider
when establishing workshare discounts for market-dominant products. The Postal
Service uses these calculations and discounts when developing its Annual Compliance
Report. Management and the Network Operations group use mail volume data to
determine facility mail processing productivity and efficiency.

Objective, Scope, and Methodology

Our objective was to evaluate the accuracy of mail volume data reported by WebEOR.
To accomplish our objective we:

    Evaluated the WebEOR report module and tested WebEOR reports.

    Visited four processing and distribution centers;16 interviewed In-Plant Support
     managers; observed mail processing operations, WebEOR functionality, and the
     annual survey of manual mail volumes; and evaluated controls of other functions.

    Evaluated procedures concerning data validation checks, program runs deletions,
     and the consequences of mapping errors and equipment malfunctions.

    Met with mail processing experts to gain an understanding of the WebEOR system,
     report generation, and the uses of information generated by the system; and to
     receive training on WebEOR.

    Met with the Postal Service’s Cost Attribution group to discuss observations from
     various site visits and information gathered from interviews with Network Operations.

We conducted this performance audit from June 2013 through June 2014 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on May 1, 2014, and included their
comments where appropriate.



16
 We visited four processing and distribution centers in different Postal Service areas. The sites were Buffalo, NY;
Merrifield, VA; Oklahoma City, OK; and Indianapolis, IN.


                                                          6
Web End-of-Run System                                                          MS-AR-14-004



We assessed the reliability of WebEOR data by performing data analysis on WebEOR
FHP manual survey factors resulting from annual surveys and observing automated
mail processing during site visits. We determined that the data were sufficiently reliable
for the purposes of this report.

Prior Audit Coverage

                                                          Final            Monetary
                                                         Report             Impact
          Report Title             Report Number           Date          (in millions)
 Assessment of Overall Plant        NO-MA-13-007        9/26/2013           $628.7
 Efficiency 2013
 Report Results:
 Although this report did not include any information specific to WebEOR, its findings
 did relate to mail volume reporting, which is processed through WebEOR. The
 Postal Service had not yet fully adjusted workhours in response to declining mail
 volume or achieved all possible efficiencies in mail processing operations.
 Therefore, the Postal Service used over 14 million workhours more than necessary
 to process mail volume. Management did not respond to this report.

 Delivery Operations Data           DR-AR-13-001       10/11/2012         None
 Usage
 Report Results:
 Although this report did not include any information specific to WebEOR, its findings
 could result in future use of WebEOR volume data. City delivery operations have a
 substantial number of systems, reports, and data to manage operations. It is
 paramount that the Postal Service optimizes the systems, reports, and data so
 supervisors and managers can make informed and timely operational decisions.
 Management agreed with the findings and recommendations.

 Management Operating Data CRR-AR-12-002             12/13/2011            $86.5
 System
 Report Results:
 The Postal Service must take additional steps to provide more accurate mail
 processing and cost avoidance estimates. We analyzed the impact of alternative
 methodologies on two cost avoidance models and estimated that the revised
 workshare discounts could have resulted in a net impact of $86.5 million in reduced
 workshare discounts and increased revenue. Management agreed with the findings
 and recommendations but disagreed with the OIG’s calculations of monetary impact.




                                             7
Web End-of-Run System                                                                                 MS-AR-14-004



                                       Appendix B: Other Impacts

            Recommendation                          Impact Category                         Amount
                  1                                   Data Integrity17                       N/A

Limitations in the WebEOR system can lead to the loss of automated volume data when
mailpieces do not go through various sort programs in a designated timeframe. Loss of
such volume information would pose a risk to the accuracy of WebEOR data from
automated mailpieces. Second, the current methodology the Postal Service uses to
calculate WebEOR manual mail volume is not consistent across facilities and is subject
to bias and other limitations.

We were unable to measure and monetize the potential impact of these data integrity
issues because the manual surveys we used are based on a judgmental sample and
not a statistical sample. Therefore, we could not establish the accuracy or the
magnitude of the data being measured. Mitigating the data integrity issues should help
promote more accurate mail volume reporting and data integrity. These improvements
would result in more accurate cost avoidance calculations and measurement of facility
productivity and efficiency, which could enhance management's decisions for planning
and allocating resources.




17
  Data integrity impacts relate to validation of the consistency, accuracy, and completeness of data the Postal
Service uses. Data integrity impacts are also related to data used to support management decisions that are not fully
supported or completely accurate. This can be the result of flawed methodology, procedural errors, or missing or
unsupported facts, assumptions, or conclusions.




                                                          8
Web End-of-Run System                                       MS-AR-14-004



                        Appendix C: Management’s Comments




                                        9
Web End-of-Run System        MS-AR-14-004




                        10
Web End-of-Run System        MS-AR-14-004




                        11
